No. _____________

In The
Supreme Court of the United States of America
JAMES CLAY AND AUDREY OSCEOLA,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE WITH TYPE-VOLUME LIMIT,
TYPEFACE REQUIREMENTS, AND TYPE-STYLE REQUIREMENTS

As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Writ of Certiorari in the above-referenced case was prepared in Century Schoolbook
12-point font, with a margin exceeding 3/4 inch on all sides, and contains 3,795
words, excluding the parts of the petition exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 13, 2021

By: s: Robert O. Saunooke_
SAUNOOKE LAW FIRM, P.A.
ROBERT O. SAUNOOKE
PO BOX 309
319 BIG COVE ROAD
CHEROKEE, NC 28719
PHONE: (561) 302-5297
Counsel for Petitioners

